<html>
<title> - THE DEFENSE POW/MIA ACCOUNTING AGENCY BRINGING OUR NATION'S HEROES HOME</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                          THE DEFENSE POW/MIA
                           ACCOUNTING AGENCY:
                   BRINGING OUR NATION'S HEROES HOME

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                               AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                           NOVEMBER 19, 2019
                               __________

                           Serial No. 116-73
                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


        Available via the World Wide Web: http://www.govinfo.gov
                     http://www.house.oversight.gov
                       http://www.docs.house.gov
                       
                       
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
38-55 PDF                 WASHINGTON : 2020                          
                       
                       



                   COMMITTEE ON OVERSIGHT AND REFORM

            CAROLYN B. MALONEY, New York, Acting Chairwoman

Eleanor Holmes Norton, District of   Jim Jordan, Ohio, Ranking Minority 
    Columbia                             Member
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Debbie Wasserman Schultz, Florida    Michael Cloud, Texas
John P. Sarbanes, Maryland           Bob Gibbs, Ohio
Peter Welch, Vermont                 Ralph Norman, South Carolina
Jackie Speier, California            Clay Higgins, Louisiana
Robin L. Kelly, Illinois             Chip Roy, Texas
Mark DeSaulnier, California          Carol D. Miller, West Virginia
Brenda L. Lawrence, Michigan         Mark E. Green, Tennessee
Stacey E. Plaskett, Virgin Islands   Kelly Armstrong, North Dakota
Ro Khanna, California                W. Gregory Steube, Florida
Jimmy Gomez, California              Frank Keller, Pennsylvania
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
                Dan Rebnord, Subcommittee Staff Director
                          Amy Stratton, Clerk

               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051

                   Subcommittee on National Security

               Stephen F. Lynch, Massachusetts, Chairman
Jim Cooper, Tennesse                 Jody B. Hice, Georgia, Ranking 
Peter Welch, Vermont                     Minority Member
Harley Rouda, California             Paul A. Gosar, Arizona
Debbie Wasserman Schultz, Florida    Virginia Foxx, North Carolina
Robin L. Kelly, Illinois             Mark Meadows, North Carolina
Mark DeSaulnier, California          Michael Cloud, Texas
Stacey E. Plaskett, Virgin Islands   Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Clay Higgins, Louisiana




                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on November 19, 2019................................     1

                               Witnesses


Panel One
Mark Noah, Chief Excutive Officer, History Flight
    Oral statement...............................................     5

Vincent "B.J." Lawrence, Washington Office Executive Director, 
  Veterans of Foreign Wars
    Oral statement...............................................     7

Jo Anne Shirley, Former Chair, National League of POW/MIA 
  Families
    Oral statement...............................................     9

Panel Two

Kelly McKeague, Director, Defense POW/MIA Accounting Agency
    Oral statement...............................................    20


*Written opening statements, and the written statements for 
  witnesses are available at the U.S. House Repository: https://
  docs.house.gov.

                           Index of Documents

The document listed below is available at: https://
  docs.house.gov.

* DPAA List of Active Partnerships from Mr. McKeague; submitted 
  by Rep. Lynch.

 
                          THE DEFENSE POW/MIA
                           ACCOUNTING AGENCY
                   BRINGING OUR NATION'S HEROES HOME

                              ----------                              


                       Tuesday, November 19, 2019

                   House of Representatives
                  Subcommittee on National Security
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 3:05 p.m., in 
room 2203, Rayburn House Office Building, Hon. Stephen Lynch 
presiding.
    Present: Representatives Lynch, Desaulnier, Kelly, 
Lawrence, Hice, Cloud, Green, and Higgins.
    Mr. Lynch. The committee will come to order. Without 
objection, the chair is authorized to declare a recess of the 
committee at any time.
    This hearing is entitled ``The Defense POW/MIA Accounting 
Agency: Bringing Our Nation's Heroes Home,'' and I will 
recognize myself for five minutes to give an opening statement.
    Good afternoon, everyone. Today we will examine the 
progress of the Defense POW/MIA Accounting Agency, or the DPAA, 
in fulfilling its historic mission to provide the fullest 
possible accounting of our missing military personnel to their 
families and the Nation. This will mark the first congressional 
hearing to exclusively focus on the oversight of the DPAA since 
the agency's creation in 2015.
    At the outset, I would like to commend Ranking Member Jody 
Hice of Georgia for his leadership in supporting the POW/MIA 
identification and recovery efforts. On a bipartisan basis, Mr. 
Hice and I have been working to address the outstanding 
budgetary, operational, and management challenges facing the 
DPAA in order to maximize the agency's ability to account for 
more than 82,000 missing servicemembers from World War II, the 
Korean War, the Vietnam War, and other conflicts.
    In September, Mr. Hice's staff joined me on a congressional 
delegation to visit the DPAA headquarters and Skeletal 
Identification Laboratory located on Joint Base Pearl Harbor 
Hickam Airfield, to receive a mission update from Deputy 
Director Rear Admiral John Crites.
    The streamlining of POW/MIA tracking and recovery efforts 
into a single agency, now the Defense Department POW/MIA 
Accounting Agency, followed extensive audits conducted by the 
Department of Defense Office of the Inspector General, the 
Government Accountability Office, and other Federal agencies. 
These reports highlighted critical mission gaps arising from 
the fragmentation of accounting operations across three 
entities, each reporting through separate chains of command.
    In response to bipartisan concerns over the lack of a 
clearly defined mission, inconsistent policies, indeterminate 
resources and other obstacles facing the accounting community, 
Secretary of Defense Chuck Hagel and Congress mandated the 
creation of a single organization to lead a renewed effort to 
identify and recover the remains of missing American military 
personnel.
    To the credit of the agency leadership, since 2015, the 
DPAA has taken meaningful steps toward refining its mission, 
unifying agency functions and personnel, and augmenting its 
accounting and recovery operations. With 218 recorded 
identifications in Fiscal Year 2019, DPAA reports that it 
exceeded the previous high annual total recorded by the agency 
or its predecessor organizations.
    In order to further improve its mission, person 
identifications, DPAA is developing a strategy with an end goal 
of making at least 350 identifications annually by 2025. To 
this end, the agency plans to continue expanding its 
disinterment operations. In December of last year, the DPAA 
commenced a large-scale, multi-phased, disinterment project for 
652 sets of remains of American servicemen buried as unknown 
soldiers at the National Memorial Cemetery of the Pacific, also 
known as the Punchbowl.
    DPAA is also reinforcing its mission through diplomatic 
partnerships, with 46 host nations, and collaborating with 
veteran service organizations, nonprofit institutions, and 
other private sector entities.
    Investigations and recovery team operations are ongoing in 
Laos, Myanmar, Malaysia, South Korea, Guam, Palau, and other 
host nationsites. Moreover, the agency reports that its 
strategic public-private partnerships in field, investigatory, 
and excavation work, historical research analysis, and data 
collection have augmented recovery operations and helped to 
maximize scarce resources.
    However, gaps in our POW/MIA accounting process and 
recovery efforts remain. The Office of the Inspector General 
reports that while DPAA allocates the majority of its 
operational budget to Vietnam War-related cases in Southeast 
Asia, the agency has not effectively communicated its rationale 
to accounting community stakeholders.
    In certain cases, the prioritization of Southeast Asia has 
distracted DPAA from pursuing viable missions related to 
previous conflicts outside of the Pacific theater. The Office 
of Inspector General also found gaps in information sharing 
between the agency and the families of unaccounted-for service 
personnel. The communication of timely and accurate information 
to our POW/MIA families is at the heart of the responsibility 
of DPAA, and we must make every effort to improve this process.
    We must also examine other personnel and operational 
challenges. For example, mandatory furloughs of Department of 
Defense civilian employees in previous years have suspended the 
search and recovery missions of DPAA's predecessor agencies and 
brought them to a virtual halt. Given that agency 
anthropologists, life support analysts, and other civilian 
workers were forced to take monthly furlough days, they could 
not participate in operations that typically last over a month.
    Delays are also problematic because the extreme conditions 
during the rainy seasons in places like Vietnam and Laos 
provide a limited window of opportunity to conduct recovery 
operations.
    So in order to ensure the continuation of DPAA missions in 
the event of future budgetary uncertainty, earlier this month I 
introduced H.R. 4879, the Defense POW/MIA Accounting Agency 
Support Act, to exempt DPAA civilian employees who are deployed 
on recovery missions from furloughs.
    Back in 2011, I led a bipartisan congressional delegation 
to Vietnam and the Philippines to examine search and recovery 
operations conducted by one of DPAA's predecessor agencies, 
JPAC, which is the Joint POW/MIA Accounting Command. I recall 
that our counterparts from the Vietnam Office for Seeking 
Missing Persons and the Philippine government repeatedly 
expressed their great admiration for the United States for its 
unwavering national commitment to leaving no servicemember 
behind. It is our collective determination as a nation to bring 
America's heroes home that guide this subcommittee's oversight 
in this area.
    I would like to thank our witnesses for their willingness 
to appear and to help this committee with its work, and at this 
point I would like to yield to the ranking member from Georgia, 
Mr. Hice, for five minutes.
    Mr. Hice. Thank you very much, Mr. Chairman, and I just 
want to say thank you for calling this important hearing. You 
and your staff have been great to work with and we appreciate 
you working with us and our staff as well.
    We all are here to owe an enormous debt of gratitude to our 
service men and women who maintained for us the freedoms and 
liberties that we enjoy here in this country, and in 
particular, those who have given the greatest sacrifice of all, 
and that is what brings us here.
    I want to thank Dr. McKeague, or Director McKeague for 
being here, and all of you for your flexibility, due to 
scheduling and plane flights, to be able to make adjustments. 
We appreciate that a great deal and we welcome all of you here.
    It is estimated that about 82,000 American servicemembers 
remain unaccounted for from past conflicts, and we need to do 
everything we can to bring them home. These families deserve so 
much from their fellow Americans, including providing closure 
for their loved ones having served this country.
    The DPAA was formed through a consolidation of three 
organizations in 2015, to lead a national effort to account for 
missing servicemembers and to be a resource for families 
regarding their missing servicemembers' loss and recovery 
efforts. This is, frankly, one of those organizations we all 
hope and pray no one ever needs, but when it is needed we want 
it to function effectively and properly. And I know Chairman 
Lynch and myself and both sides want to see excellence in the 
DPAA in every way, both to honor our servicemembers and their 
families.
    Currently, DPAA has a team of over 600 military and 
civilian employees conducting missions across 42 partner 
nations, working toward this goal, and we want to thank all of 
them for their dedication to the mission before them. In the 
past two years, DPAA has recovered and identified over 400 
missing servicemembers. Under President Trump's leadership, the 
DPAA received 55 contains of U.S. servicemembers' remains from 
North Korea, and from that so far, 41 individuals have been 
identified. But obviously there is still a lot of work to day.
    Today we have the honor of hearing from each of you. Jo 
Anne Shirley, former chair of the National League of POW/MIA 
Families, an organization dedicated to securing the release of 
all prisoners of war and the fullest possible accounting of 
those lost during the Vietnam War. Ms. Shirley not only led the 
National League for many years but her brother is one of those 
brave men who is still unaccounted for after his plane went 
down during the Vietnam War. Jo Anne, I want to thank you for 
your tireless efforts and for the multiple meetings that we 
have had personally. I want to thank you for that.
    By Fiscal Year 2025, by working with organizations like the 
National League, the VFW, History Flight, and host nations, 
DPAA hopes to make 350 new identifications each year. I look 
forward to hearing from Dr. McKeague and each of you. Director 
McKeague, you may be a doctor. I know you are from Georgia 
Tech. It kind of rolls off. But I look forward to hearing from 
you and each of you on our panel today as we try to move toward 
that goal of 350 a year.
    So this hearing will also be a chance for us to receive an 
update on the process the DPAA uses to recover and identify 
servicemembers as well as how they keep families apprised of 
the developments.
    Additionally, we are looking forward to hearing from Mark 
Noah from History Flight. I look forward to hearing more about 
the important role that this nonprofit plays in the effort to 
bring our servicemembers home. And also Mr. Vincent ``B.J.'' 
Lawrence of Veterans of Foreign Wars, or VFW.
    Again, I want to thank each of you for being here today. 
Thank you for your dedication to this important task, not only 
to those whose lives were lost and to their families but to our 
Nation. We want to bring these people home.
    And again, Mr. Chairman, I want to thank you for your 
leadership in this, and I look forward to this hearing, and I 
yield back.
    Mr. Lynch. The gentleman yields back. It is an honor to 
have this hearing, and I want to thank the witnesses for your 
willingness to come before the committee and help us with our 
work, our collective work.
    The committee would like to welcome Mark Noah, the Chief 
Executive Officer of History Flight, Vincent ``B.J.'' Lawrence, 
Washington Office Executive Director, Veterans of Foreign Wars, 
and Jo Anne Shirley, Former Chair, National League of POW/MIA 
Families.
    Would you all please rise and raise your right hand.
    I will begin by swearing you in.
    Do you swear or affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    [Chorus of ayes.]
    Mr. Lynch. Let the record show that the witnesses have all 
answered in the affirmative. Thank you, and please be seated.
    The microphones are sensitive so please speak directly into 
them. Without objection, your written statements will be made 
part of the record.
    With that, Mr. Noah, you are now recognized to give an oral 
presentation of your testimony for five minutes.

STATEMENT OF MARK NOAH, CHIEF EXECUTIVE OFFICER, HISTORY FLIGHT

    Mr. Noah. Mr. Chairman and members of the committee, it is 
my humble honor to be here as a representative of History 
Flight and to share my 15 years of volunteer experience in the 
mission to repatriate the missing in action servicemen from 
past conflicts. Thank you for this opportunity.
    Noted author, David Colley, wrote in the prologue of his 
book, Safely Rest, ``We have lost touch with the immense pain 
and suffering suffered by those in the war and the ripples of 
sorrow that still flow across the country from that devastating 
conflict. We know little of the men who gave their lives and 
nothing of the struggles of their families.''
    So these are very prescient words and in that context I 
would like to read a letter that I found in the National 
Archives about 15 years ago from a Mrs. Irene Rogers to General 
``Hap'' Arnold, regarding her son was missing in a plane crash 
from World War II.
    She said, ``Dear General Arnold, we appreciate your kind 
words and sympathy and also the nice things you say about our 
son, Lieutenant M.G. Rogers. I would appreciate it so much if 
you could tell me what evidence you have that all the boys died 
that day. Every branch of the service has been very kind, his 
six-month gratuity pay is coming, and his insurance papers have 
been taken care of, but the thing I want to know is, where is 
my boy?''
    Today, 81,864 families of America's missing service men and 
women still ask the same question: Where is my boy? Since 1952 
to today, the search for America's 72,661 World War II missing, 
our 7,616 Korean War missing, our 1587 Vietnam War missing, and 
our 200 missing from the cold war and beyond, have been 
chronically underfunded.
    Since 1952, the mortal remains of America's missing have 
been lost in the passage of time, discarded as trash, covered 
up by infrastructure and development, and accidentally 
disinterred in construction and agricultural cultivation of 
former battlefields. The first two Marines History Flight 
recovered on Tarawa, for example, were garishly displayed on a 
battlefield tour guide's front porch in April 2010.
    In a forthright effort to help solve the issue of America's 
81,864 missing service personnel, we founded History Flight, a 
501(c)(3) nonprofit organization capable of deploying multiple 
transdisciplinary recovery teams to any part of the world to 
recovery U.S. service personnel. For the last 15 years, we have 
merged multiple professional skill sets into a holistic, 
winning combination of search and recovery methodologies.
    To date, History Flight has accomplished the three largest 
recoveries of American missing service personnel since the 
Korean War and has recovered a minimum number of individuals 
associated with American loss incidents, totally 309 from 
Tarawa and 16 from Europe, totaling 325 recoveries to date. 
History Flight has recovered a minimum number of individuals in 
Fiscal Year 2019 that equals 79.
    History Flight has been a steadfast partner and supporter 
in the public-private partnership program with DPAA and the 
Department of Defense and our recoveries now constitute 20 
percent of the DoD's annual identifications.
    Last Friday, I was honored to be able to attend the funeral 
of PFC Joseph Livermore in Bakersfield, California. PFC 
Livermore was a Tarawa Marine that History Flight had recovered 
in March of this year, and he was recovered and identified in 
record time by the DPAA Central Identification Lab, who did an 
outstanding job to bring him to identified status in a very 
short period of time.
    The outpouring of public support for PFC Livermore was 
inspiring, as more than 1,000 people lined the streets in 
Bakersfield to welcome him home. His primary next- of-kin told 
me, ``Today is the best day of my life.''
    Today I was also fortunate to be able to attend the funeral 
of another Tarawa Marine that was recovered and identified as 
part of the Unknown Project, as well as in concert with work 
that History Flight had done with DPAA, Edwin Benson, of 
Boston, Massachusetts, at the Arlington National Cemetery.
    The meaning of a deceased family member returning to 
America for a hero's welcome is of infinite value to his family 
and to the missing, as they regain their dignity and their 
identity. Our experience has shown that more than 50 percent of 
the missing men that we have recovered have had living 
brothers, sisters, and children at their funeral.
    The recovery of America's missing servicemen is a vital 
endeavor for their families and for our country. What we are 
accomplishing in recovering the missing is putting a little bit 
of America back into America across this great country, from 
Bakersfield to Boston, and these two funerals that I just 
attended are a prime example of the success of the public-
private partnership that has thrived under the new Defense POW/
MIA Accounting Agency.
    History Flight operates offices in Virginia, Belgium, 
Tarawa, and the Philippines. History Flight employs 
transdisciplinary teams of forensic archaeologists, historians, 
genealogists, geophysical scientists, and combat wounded 
warriors who know what it means to shed blood for their 
country. Synthesizing our team's skills and life experiences 
have resulted in a business-like and passionate approach to the 
recovery of the mission where the objective is success and the 
team will stop at nothing to fulfill our Nation's promise of 
never leaving a fallen comrade behind.
    To date, History Flight enjoys a 93 percent success rate at 
every search and recovery operation that we were involved in, a 
result that is unmatched in this milieu. To achieve that, 
History Flight members have raised and contributed more than 
3.5 million private dollars and countless thousands of 
volunteer hours in an effort that has been not reimbursed by 
the Department of Defense.
    Land of the free, home of the brave, yet 81,864 missing 
Americans are buried in unmarked graves.
    Every government building, state capitol, post office flies 
the POW/MIA flag, yet our great country has yet to allocate 
resources equal to the need to recover our missing from 
America's wars of the 20th century. Resources remain the only 
major impediment to America being able to recover the men and 
women who lost their lives in the service of this country.
    Despite the fact that History Flight recovered 325 missing 
individuals, including 79 in Fiscal Year 2019 alone, and has 
recovered 200 individuals for the cost of a single recovery in 
Southeast Asia, History Flight recently received a 66 percent 
funding cut for Fiscal Year 2020. How does the legislature, who 
are responsible for funding the recoveries of America's 
missing, expect the missing to be recovered if they don't 
adequately fund the operation?
    And thank you very much for your time.
    Mr. Lynch. Mr. Lawrence, you are now recognized for five 
minutes for an opening statement.

   STATEMENT OF VINCENT ``B.J.'' LAWRENCE, WASHINGTON OFFICE 
          EXECUTIVE DIRECTOR, VETERANS OF FOREIGN WARS

    Mr. Lawrence. Chairman Lynch, Ranking Member Hice, and 
members of the subcommittee, on behalf of the men and women of 
the Veterans of Foreign Wars of the United States and its 
auxiliary thank you for the opportunity to provide remarks 
regarding our partnership with the Defense POW/MIA Accounting 
Agency. I would also like to personally thank DPAA's director, 
Mr. Kelly McKeague, and the National League of POW/MIA Families 
CEO, Ann Mills-Griffiths, who are both with us today, for their 
partnerships and support of the VFW and our shared POW/MIA 
accounting mission.
    Since 1929, the VFW has been intimately involved in the 
accounting mission. Our nation's ability to bring home our 
fallen heroes is a national commitment, but it is extremely 
limited by the lack of funding and the dwindling numbers of 
eyewitnesses who can provide information useful in identifying 
possible incident sites, among other factors. That is why the 
VFW has been partnering with DPAA and its predecessor 
organizations to work with foreign governments to help American 
researchers gain access to foreign military official archives 
and past battlefields.
    Since 1991, the VFW is the only veteran service 
organization to return to Southeast Asia, Russia, and China, 
and has made it our goal to not rest until we achieve the 
fullest possible accounting of all missing American military 
and civilian personnel from all past wars.
    Due to DPAA's efforts, 218 Americans were identified and 
accounted for in Fiscal Year 2018. However, government 
budgetary uncertainty prevented DPAA from identifying more 
fallen heroes. During a government shutdown, DPAA personnel are 
furloughed and forced to leave an incident site, which results 
in delays. The VFW thanks Chairman Lynch for introducing H.R. 
4879, the Defense POW/MIA Accounting Agency Support Act, which 
would exempt DPAA employees who are conducting accounting 
missions from being furloughed in the event of a government 
shutdown. The VFW urges Congress to consider and pass this 
important legislation as soon as possible.
    The VFW urges Congress to also provide DPAA the necessary 
resources to expand recovery operations into North Korea and to 
support the remains recovery mission in the DPRK.
    Locating, identifying, and recovering the remains of those 
who paid the ultimate sacrifice in the service of our country, 
from conflicts spanning nearly 80 years, is a difficult and 
hazardous mission, but it is one of the most important 
obligations that we have as a grateful nation. It is a promise 
to those serving in uniform today that no matter what, we will 
travel to the ends of the earth to return you home to your 
families. As a veteran who served in Korea, I am honored to 
have played a role in reuniting fallen veterans whose remains 
were left behind enemy lines in North Korea with their loved 
ones.
    The VFW has played a vital role in advancing the POW/MIA 
missions. Last July, during the 120th VFW National Convention 
in Orlando, Florida, I asked Vietnam veterans to send in 
documents that might help the government of Vietnam to 
determine the locations of burial sites in order to find their 
estimated 300,000 missing soldiers and personal effects that 
might help bring comfort to their families.
    Our VFW members and their families answered the call. On 
October 25, 2019, the VFW provided documents, artifacts, and 
personal effects to DPAA, which had the locations of 
battlefields and gravesites of Vietnamese soldiers. Returning 
these items to the Vietnamese government has helped improve the 
relationships with the United States. This display of diplomacy 
will not only help in our efforts to reach our true goal and 
promise to our families affected by the Vietnam War but help us 
gain access to future recovery sites.
    With more than 82,000 U.S. servicemembers still unaccounted 
for globally, Congress must support full mission funding and 
personnel staffing for DPAA, as well as its supporting agencies 
such as the Armed Forces DNA Identification Laboratory and the 
Military Service Casualty Offices. The fullest possible 
accounting mission remains a top priority for the VFW, and we 
will not rest until it is accomplished.
    The VFW knows supporting this mission is something we can 
all agree on, and it is why we urge Congress to ensure this 
important mission can continue in perpetuity. Regardless of any 
lapse in government funding, it is insufferable that recovery 
missions or joint field activities which take an enormous 
amount of time, energy, and resources to plan, and must be 
conducted during certain times of the year, are suspended 
simply because Congress cannot do its job.
    In closing, Mr. Chairman, I personally know you and this 
committee agree with me when I say, as a nation we must always 
honor our solemn promise to never forget and to leave no one 
behind.
    Mr. Chairman, this concludes my statement and I am happy to 
answer any questions you or the members of your subcommittee 
may have.
    Mr. Lynch. Thank you, Mr. Lawrence. Ms. Shirley, you are 
now recognized for a five-minute opening statement.

STATEMENT OF JO ANNE SHIRLEY, FORMER CHAIR, NATIONAL LEAGUE OF 
                        POW/MIA FAMILIES

    Ms. Shirley. I am very grateful to Chairman Lynch and to 
Jody Hice for the opportunity to share my brother's history 
with you and our efforts to reach the fullest possible 
accounting.
    My brother, Major Bobby Marvin Jones, United States Air 
Force flight surgeon, was two years older than me, and we had a 
very close relationship. He graduated from the University of 
Georgia, finished the Medical College of Georgia, and did his 
internship in Dallas, Texas, at Baylor Hospital.
    The Vietnam War was raging. Bobby had a very low draft 
number, so he decided to join the Air Force for two years and 
then return home to do his medical residency. So in September 
1972, he entered the Air Force and was assigned to Udorn, 
Thailand. He took care of the servicemen there at Udorn, and he 
actually reached out to help some of the local residents as 
well.
    On November 28 of 1972, Bobby was flying Bacsi in an F4D, 
headed to Da Nang, South Vietnam. There is a large mountain, 
Bach Ma Mountain, as you approach to land. It appears that the 
F4D clipped the top of Bach Ma Mountain as they came in to land 
that day. When we learned that Bobby was missing in action I 
promised him that day that I would do everything I could to 
bring him home.
    JPAC and DPAA have excavated the entire mountain slope and 
they found not a single human remain. I still work hard to get 
the fullest possible accounting of all of our missing 
servicemen, and I realize quickly that this issue is not just 
about Bobby, but it is about all. It is about the 1,587 still 
missing from Vietnam and our almost 82,000 missing from World 
War II to present day.
    My parents learned about the National League of POW/MIA 
Families about a year later, and we decided to join, and we 
have never missed a meeting. I have served as the Georgia state 
coordinator for over 36 years, and I have worked diligently to 
keep my local Governor, my Georgia Governor, the Georgia State 
Veterans Department, our U.S. Senators and Representatives from 
Georgia up to date and knowledgeable about the challenges that 
we frequently face.
    Each year at our annual meeting here in D.C., my husband 
and I come two days early. The first day when we get there we 
go up to see both Georgia Senators and leave them updated 
information. The second day we go to all 14 Georgia 
congressional offices in one day. I try to set up a meeting 
with each one of them before we come up here, but usually we 
wind up meeting with staff members only. But I leave them an 
update and I followup after our annual meeting so that they can 
never say they didn't know what was going on.
    I served on the League's board of directors for 18 years 
and was chairman for 16 of those years, and I was blessed to 
have the support of my husband and my parents during that time. 
I was blessed to make four delegation trips to Southeast Asia, 
to Vietnam, Laos, Cambodia, and Thailand, where we met with 
high-ranking officials in each country every time we went. We 
went out to about 12 or 14 of our ongoing site excavations. We 
actually stayed sometimes in base camps in very remote jungle 
locations, and interacted with JTF-FA and JPAC, who were 
working our sites at that time. I got to see first-hand what 
our excavation teams were doing to try to recover remains and 
airplane debris.
    I have been to Hawaii several times and I visited CILHI and 
JPAC facilities each time, and I got to see how our specialists 
process remains that they have recovered, trying to extract 
samples of their DNA to match the DNA in the Armed Forces DNA 
Laboratory data base with DNA from the maternal side of the 
family for each man that is missing.
    The accounting efforts face many challenges. No. 1 is 
funding this issue. That is a big deal. And I regret that DPAA, 
DIA, and AFDIL do not have enough personnel to reach the 
seemingly ever-increasing goals first set by Congress, and now 
we have to do that. When World War II and Korean War families 
finally got organized, and they had never been organized before 
the League, we saw a vast expansion in the accounting mission 
to include all wars, but without the resources that we need, 
the personnel and the budget, to meet the requirements 
resulting from the vast mission expansion.
    The technology has had major changes over the years. We no 
longer use blood samples from a family member, but we can use a 
cheek swab or a hair sample to get a qualified family member 
whose DNA samples can be on file, and those have to be on the 
maternal side of the family. Soil acidity is so high in the key 
countries in Southeast Asia that we face limitations, very few 
years left to recover and try to identify the remains that we 
find. In a few years, our teams will recover bone fragments so 
decomposed that we no longer can obtain the DNA, or the remains 
will be so decomposed that we have nothing to recover.
    I don't know any Congressman who has a loved one, or even a 
very special friend, who is missing, and many government 
officials have no idea what we are dealing with as we strive to 
reach the fullest possible accountings.
    Realistically, we will never be able to recover and 
identify all of our missing, but many can still be brought home 
and honored for their service and the sacrifices that they 
made. I believe it is our responsibility, as individuals and as 
a Nation, to never ever leave them behind.
    I decided not to stand for reelection to the League's board 
of directors several years ago. My husband was retiring and my 
mother was getting older. She is still very active and praying 
that we can get Bobby home. My mother will actually be 103 in 
three weeks.
    My time and dedication to achieving the League's accounting 
objectives have not changed due to my no longer being on the 
board of directors. I still work every week and every day to 
try to help us reach the fullest possible accounting. And I 
have committed to all our servicemen to support them, both 
those that are missing and those that are serving active duty 
today, and I hope that you are too, that we can bring them all 
home and honor them for their service.
    Mr. Lynch. Ms. Shirley, thank you for your testimony, and I 
am sorry for your loss. You are a good sister. I will say that.
    Ms. Shirley. Thank you.
    Mr. Lynch. I do want to say that--so I live with a Gold 
Star sister as well. She is 94 years old. She lost her--this is 
Helen Shaughnessy, my wife's mom, and she lost her brother, 
Arnie, in his first parachute jump over the Rhine right at the 
end of--about a month before the end of the war, World War II, 
in Europe. So while I have not carried that burden I have 
certainly witnessed it.
    So that experience--and also when I was an ironworker we 
had a guy in our crew, with Local four equipment operators, and 
a guy by the name of Jim Fitz, and he had lost his boy in 1969 
in Vietnam. And I always remember while the rest of my crew 
would run off to, you know, the restaurant or the pub for 
lunch, Jim would sit in the cab of his pickup truck with the 
flag that they had given him, because his son was not 
recovered, and he would basically cry each day for lunch. That 
was his world.
    Thankfully, in 1988, they recovered his son's remains, and 
I saw what a profound relief that was for his family and for 
Jim. That--those experiences have motivated me, in terms of 
being engaged in this process. And, you know, we are very lucky 
here, on this issue especially, that we have such great 
bipartisan support. Now this subcommittee will--while I have 
already done a couple of trips over, we will do another one 
specifically of Southeast Asia. We would like to get into Laos 
too, because while there has been a lot of attention on Vietnam 
and a lot of resources--not enough but a lot of resources on 
Vietnam--we would like to get into Laos because some of those 
families, you know, deserve our efforts as well.
    I want to acknowledge the time and energy and passion that 
all three of you have poured into the mission to recover 
America's missing heroes and keep their legacies and stories 
alive. Not only have you helped bring closure and comfort to 
hundreds of families through the recovery and repatriation of 
their loved ones, you have also helped raise the awareness of 
this noble humanitarian cause.
    Ms. Shirley, I would like to ask you to go back to the 
issue of--because when we went to the identification lab 
recently, we also heard the complaint that we did not have DNA 
samples from families, so that it would help the forensic 
pathologists identify the remains. You have to have a match. 
The Tarawa situation was a little different because you had a 
clavicle analysis, because we had x-rays of every single one of 
those boys. But can you talk about how perhaps families can be 
more engaged and how we might be able to, you know, enlist them 
to be more active and provide those DNA samples to help DPAA do 
their work as well?
    Ms. Shirley. I wish I had a good answer for that, because 
there are a lot of families who just choose not to do anything.
    Mr. Lynch. Yes.
    Ms. Shirley. The pilots on my brother's plane, I called 
them immediately when I found out that they wanted DNA from the 
maternal side of the family, and he was married and he had a 
baby and the baby's DNA would have been, you know, legitimate 
to put on file. And the wife told me that they had moved on 
with their lives, and this was just a few months, you know, 
past that, and not to ever call them or contact them again. So 
it has been kind of reluctant, but I don't even know if our lab 
has their DNA on file.
    I also shared our story at the home where my mother was 
staying first, and I shared our story and then I asked if 
anybody had a question. And this lady in the back raised her 
hand and she said, ``My brother is missing from World War II.'' 
And I sat down with her afterwards and I said, ``Is your DNA on 
file?'' and she said, ``No. I have moved on with my life.'' And 
she died six months later, and I went to her husband and I 
said, ``Can I have her hairbrush?'' and he said, ``She didn't 
want to do that, so I have thrown everything away.''
    Mr. Lynch. Wow.
    Ms. Shirley. So there are families who just have moved on 
with their lives. I honestly can't be in that same pew, but you 
can't force them to do it.
    Mr. Lynch. Yes.
    Ms. Shirley. We try to get the message out there. We try to 
spread, you know, the issue that we are trying to recover and 
bring them home. And my response now, I try to be nice about it 
but my response now is, ``Okay, so you want them to sit in a 
box on a shelf in the lab somewhere, and we can't bring them 
home and honor them for their service and their sacrifice.'' 
And there are families that just kind of blow you away and they 
don't want to do it.
    Mr. Lynch. Yes.
    Ms. Shirley. So I think the more we get the message out 
there, the more likely we are to have somebody step forward.
    And now we have got another generation that might be 
willing to do it. Like that baby that the pilot had, she is 47 
years old. I have never met her. She has never come to a League 
meeting. She has never joined us or done anything. How do you 
force people to do it?
    Mr. Lynch. Well, maybe our successes, when people hear 
about Bakersfield and Boston----
    Ms. Shirley. Absolutely.
    Mr. Lynch [continuing]. and the Benson family, maybe that 
inspires people to say, ``Hey, you know, this is meaningful and 
these young men deserve it.''
    Ms. Shirley. And it can happen.
    Mr. Lynch. Right, and it is possible.
    I have exceeded my time for questioning. I would like now 
to yield five minutes to Mr. Cloud for his questioning.
    Mr. Cloud. Thank you, Chairman, and thanks again for 
holding this hearing. It is comforting that we can come 
together as a Congress on an issue as important as this and lay 
aside the differences and approach something that is extremely 
important to our Nation.
    Thank you, Mr. Noah, and thank you, Mr. Lawrence, for your 
service to our country. Thank you especially that it continues 
beyond just wearing the uniform and all that you have done to 
serve with those who do wear the uniform but that your service 
has continued in what you are doing today. It is to be admired 
and respected, and I hope challenges us, all of us, in our 
service.
    Ms. Shirley, of course your loss, we are sorry for that, 
and want to do our best to help you and other families like 
you. Could you tell us some of the challenges that families--I 
know you have worked, not only your personal experience but you 
have also worked with a number of families. Could you share 
your experience and maybe some of the challenges that families 
run into in recovering the remains or trying to find out 
information about a member who has been lost?
    Ms. Shirley. You know, you never know which case or which, 
you know, one of our missing is going to be on the list. So we 
really just have to be very confident that DPAA is going to do 
everything they can, in all the countries, to get to those 
locations. You know, the real--you know, the challenge is to 
find where those locations are, because a lot of them, we have 
lost them but we don't know, you know, where to go and try to 
do those recoveries.
    So I think, you know, families are just--I think the more 
we have--the more we can get involved, the better off we are, 
because we can spread the message to our Congressmen, to our 
President, to our Vice President, and I think that is a real 
challenge, to get more families. And now you look at--you are 
talking World War II. Is it going to be the children, the 
grandchildren, the great-grandchildren now that you want to be 
involved, that care? They didn't even know that loved one that 
is missing.
    So I think we have a lot of challenges to get the message 
out, you know, of what we can do, what we are willing to do, 
what our capabilities are. And the more involved they are going 
to be, the better off we are.
    Mr. Cloud. What are, I guess, maybe a couple of tips that 
you would give a family?
    Ms. Shirley. Well, the first one would be DNA. Get your DNA 
on file if you are on the maternal side of the family. And I 
think being involved where you can spread that message is huge. 
Not--you know, if I share Bobby's message then, you know, it 
just shows that we do have information, there are things we can 
do, and it brings other people in as well, not just family 
members but it brings, you know, our veterans groups in. And I 
think the more we can get that message out, the better off we 
are. But you have got to consider, you know, those generations 
are now much lower. They are not the ones who actually knew 
that guy that is missing, and that is difficult.
    Mr. Cloud. Now we have a few individuals in our district, 
in the community where I live, who have looked to our office 
for help, not for family members but for their buddies, and we 
have run into even challenges trying to help them because of 
privacy issues and those kind of things. Do you have any 
thoughts on, first of all, if that is an issue that you have 
heard as well, how we could address that while respecting the 
privacy issues, speaking from the perspective of a family 
member? Do you have any guidance on that for us?
    Ms. Shirley. Well, privacy is kind of a challenge, I think, 
for some people, but people like me, I don't care about the 
privacy about my brother's case. I want the message out there, 
you know, that the more people that are involved--they can do 
fundraising, they can do public awareness, they can support 
those families. And, you know, the people that I have that 
support me and my mom in everything we do, it is so uplifting 
and so encouraging that that is huge.
    So it is not big things--fundraising is great--but I think 
just the emotional support from people who don't have someone 
missing is, you know, critical.
    Mr. Cloud. Now we mentioned some of the infrastructure 
needs, I guess, or financial needs, or those kind of things, 
finances being one. Is lab capacity another issue, or do you 
understand, from your understanding that we have the lab 
capacity? When it comes to capacity, is it more of a lab issue 
or personnel issue?
    Ms. Shirley. You are probably asking the wrong person, but 
I would say both. You know, I think the more people we have 
that work these cases, that have the expertise to do, you know, 
their specific jobs, the better off we are going to be. So I 
think, you know, DPAA needs the personnel and the budget to be 
able to achieve, you know, the fullest possible accounting.
    We have so many, you know, sets of remains that come in, 
and when you get remains like you get from Korea, and this 
might just be my opinion, but when they brought all those 
caskets in, that crazy guy over there, I can see him taking one 
set of remains and putting them in three or four different, you 
know, caskets. And it looks good, but when you get to the lab 
they have got to really do, you know, an examination on each 
one of those, you know, pieces of remains, and make sure that 
they are individual and they are not, you know, the same 
person.
    So I think, you know, we have to have the expertise in the 
lab to be able to do those kinds of things, while we are still 
going out and bringing others, you know, in as well. So it is a 
real challenge. I think the lab, they do an amazing job, but I 
think the more people we have in there that have that 
expertise, the better off we are going to be.
    Mr. Cloud. I have exceeded my time, Mr. Chairman.
    Mr. Lynch. The gentleman yields. Just on that point--and we 
will hear from Mr. McKeague a little later, but it is my 
understanding of the 51 sets of remains that we got from North 
Korea, the Chosin Reservoir area, there were 187 sets of 
remains within the 51 boxes, and that I believe there were 
dozens that were actually Chinese soldiers that had perished at 
that battle.
    Ms. Shirley. And we sent them back.
    Mr. Lynch. And we did. And we did.
    Ms. Shirley. Yes.
    Mr. Lynch. The chair now recognizes the gentlewoman from 
Michigan, Mrs. Lawrence, for five minutes.
    Mrs. Lawrence. Thank you, Mr. Chair. Mr. Noah, History 
Flight has been working on various projects in cooperation with 
DPAA, and you have described History Flight's relationship with 
DPAA as solid and professional. Can you explain how DPAA 
funding supports your work?
    Mr. Noah. The History Flight project has been funded over 
the years by the personal donations of some of the members, as 
well as selling airplane rides and using the revenue from the 
profit margin to fund the search for the missing. And History 
Flight also has a series of government partnership contracts 
with DPAA. So it is a combination of private donations and DPAA 
funding for our projects.
    Mrs. Lawrence. And it is sufficient?
    Mr. Noah. Well, in the remarks that I made, at the end, I 
mentioned that we had recovered 325 individuals, including 79 
individuals in Fiscal Year 2019, and for Fiscal Year 2020 we 
received a 66 percent cut in funding. So I have to say, looking 
at the macro picture of the missing from all the wars of the 
20th century, they have all been chronically underfunded since 
the 1950's, and I think that in order to really put the best 
foot forward for the country, funding has to be adequate to the 
problem at hand.
    Mrs. Lawrence. I appreciate that. If DPAA is able to 
continue its work in North Korea under a new record of an 
agreement, would History Flight want to be involved?
    Mr. Noah. I would have to say absolutely. History Flight 
has pioneered a transdisciplinary methodology to use remote 
sensing cartography, aerial photography, and archaeology 
combined to find missing graves that are unmarked. We have 
recovered over--well, we have recovered 309 individuals from 
Tarawa. Many of them were underneath buildings, underneath 
roads and houses. And we used the transdisciplinary methodology 
to find them. And we also used the concept of establishing an 
office in the project area and maintaining a 12-month-a-year 
presence. We had the continuity for the projects.
    So if there was ever an opportunity to get back into North 
Korea, there are numerous graveyards in North Korea that were 
left behind by the U.N. when they pulled back after the Chosin 
Reservoir. There are also numerous graveyards of allied service 
personnel at the POW camps throughout North Korea. So I think 
the opportunity to get back into North Korea would be a very 
fruitful one, and we are well-suited to do that.
    Mrs. Lawrence. That is good to know.
    Mr. Lawrence, you have stated that the Veterans of Foreign 
Wars, and I quote, ``continues to stand firm on its 
relationship and dedication with both the National League of 
POW/MIA Families and DPAA.'' How would you describe your 
communications with DPAA leadership? Would you say it is 
responsive to your feedback?
    Mr. Lawrence. I believe they are very responsive. We are in 
constant communication. We have some joint programs that we 
both monitor as it pertains to the POW/MIA mission. I spoke of 
one in the testimony that the VFW currently is involved with 
DPAA on, and that is asking our members, our over 1.7 million 
members worldwide, to consider giving us artifacts to the VFW 
or maps or battle memorabilia that they might have brought home 
from previous wars, and we turn them over to DPAA to process 
and to analyze.
    We also have another program, and the chairman asked about 
it. We also have another program where we urge our members to 
provide those DNA samples, and we do that through our 
publications, our magazine, our Checkpoint newsletter, and on 
social media. So we actually pursue DNA--ask our families to 
submit DNA samples as well. That is another one of our 
programs.
    Mrs. Lawrence. Great. I want to say thank you. We hope that 
DPAA will continue to capitalize on the numerous benefits it 
gains from working with organizations like History Flight and 
the National League. If you think that more can be done to 
support the network of NGO's and the accounting mission, I 
encourage you to reach out to members of the subcommittee, and 
I yield back.
    Mr. Lynch. The gentlelady yields back. The gentleman from 
Georgia, Mr. Hice, is now recognized for five minutes.
    Mr. Hice. Thank you very much, Mr. Chairman. Ms. Shirley, 
as past chairwoman of the National League, what were some of 
the more common problems, challenges that you faced working 
with DPAA, that you heard or that you saw that families were 
dealing with? What were some of the common challenges?
    Ms. Shirley. Honestly, I think most of our relationship 
with them has been very good. We reach out to them and then we 
get a response back very quickly. We have had great guys 
working, you know, out there in Hawaii, and I think we are 
blessed to have that kind of, you know, support.
    Mr. Hice. Okay. So let's go there. Once a servicemember is 
found, then the family is notified, what kind of timeframe are 
we talking about from that point? How long is it before the 
family is able to make arrangements and have a proper 
interment, or whatever they want to do?
    Ms. Shirley. Well, I can't say I have been down that road 
so I am not sure, but I think we get them back on a pretty, you 
know, quick basis and honor them, you know, in whatever way the 
family----
    Mr. Hice. Like what is a quick basis? I mean, what are we 
talking about? What kind of timeframe?
    Ms. Shirley. I am not absolutely sure about that. It just 
depends.
    Mr. Hice. Do any of you have an idea?
    Mr. Lynch. Next panel.
    Mr. Hice. Okay. The next panel will? Okay. So your 
experience has been very positive. You mentioned your brother. 
So I understand that DPAA, on at least a couple of times, have 
thought they had located your brother. So what kind of 
communication, in that kind of instance, took place with DPAA?
    Ms. Shirley. I think being involved and as active as I have 
been, and knowing everybody, you know, that works our cases in 
different aspects, I have gotten great response back from them. 
Not, you know, having to wait too long or sometimes I just call 
and ask questions and I get a response back pretty quick. So I 
am blessed to have, you know, the interaction that I have had 
up to this point.
    Mr. Hice. Do you think that is characteristic of other 
families, you have a very close relationship or working 
relationship? Is that from what you hear? I mean, you work with 
a lot of families, talk to a lot of families. Is that the type 
of thing that you hear?
    Ms. Shirley. I truly believe it is. I think----
    Mr. Hice. Excellent.
    Ms. Shirley [continuing]. DPAA does everything they can to 
get that, you know, message out to the families.
    Mr. Hice. Okay. So we have--let's just say we have a family 
out here who is trying to locate a servicemember or a loved one 
and they are just trying to get started in the process. It has 
got to be a pretty intimidating thing to even begin the 
process. They have probably just kind of have a sense of 
overwhelming challenges. Where do you tell them to go? What 
happens for that family? How do they need to get started? What 
can they expect?
    Ms. Shirley. I think they just need to contact DPAA and ask 
the questions, you know, that are on their mind, and get what--
if they don't get the responses back that they want then they 
need to ask those questions again. I don't think sitting back 
and just saying, ``Well, I am just going to wait here and hope 
that, you know, miracles happen.'' I think the more the 
families, you know, come on board and, you know, ask the 
questions they need answers to, they are very quick to respond 
to those.
    Mr. Hice. Chairman Lynch introduced--he mentioned it a 
little earlier before I had to step out, the Defense POW/MIA 
Accounting Agency Support Act. Are you familiar with that, 
somewhat?
    Ms. Shirley. Um----
    Mr. Hice. How would--I guess my question is, can you talk 
about how that would impact DPAA?
    Ms. Shirley. I am going to let somebody else answer that 
one----
    Mr. Hice. Okay.
    Ms. Shirley [continuing]. because I am not totally up to 
date on that one.
    Mr. Hice. Okay. All right, well, listen, I again want to 
thank you. I want to thank all of our panelists for the 
incredible work you do. All of us here feel that what you do is 
not only worthwhile, it is necessary. And we are just grateful 
for each of you, the role that you are doing to make this 
function as efficiently, and I am thrilled that the experience 
that you have had with DPAA has been so positive and that that 
seems to be across the board. That is just tremendously 
encouraging to hear, so thank you very much.
    I yield back.
    Mr. Lynch. The gentleman yields back. The gentleman from 
Tennessee, Mr. Green, is recognized for five minutes.
    Mr. Green. Thank you, Mr. Chairman, and Ranking Member 
Hice. I thank the witnesses for being here. I am very thankful 
for what you guys do and what DPAA does to bring our sons and 
daughters home, my brothers and sisters, I might add, in arms, 
who have made the ultimate sacrifice. And I ask the members of 
the audience and anybody watching on television, if you thought 
your nation would abandon you on the battlefield, you probably 
wouldn't aggressively expose yourself to enemy fire or put 
yourselves more violently in harm's way.
    You guys are the ones who enforce the motto of our 
soldiers, sailors, airmen, and Marines, and that is that we 
will leave no man or woman behind, and the unit that I served 
in, committed two Chinooks fully loaded with Army Rangers to 
find one Navy SEAL's body, and we lost several men on that 
battle. My friends died trying to find his body.
    As we now transition into what is the Nation's first 
multigenerational war, what was my generation's war is now 
becoming my son's war, as Second Lieutenant Green just returned 
from Syria and Iraq and Kuwait. Knowing that you have committed 
wholly to your mission, I just want to thank you and say that 
my wife and I are--we find some reassurance in knowing that you 
are there doing your mission.
    My questions are mostly about the process itself. None of 
you guys are from DPAA, though, right? That is in the next 
panel? Okay. I am really not going to say much else then for 
now, other than to just thank you for all that you do. And I 
agree with Chairman Lynch--you are a great sister, and I can 
only hope that if that would have been me or my son, we will 
all fight as equally hard. I am sure we will. But again, thank 
you. Thank you for your service to the Nation and your service 
to these men and women who have paid the ultimate sacrifice.
    I yield.
    Mr. Lynch. The gentleman yields back. The chair now 
recognizes the gentleman from Louisiana, Mr. Higgins, for five 
minutes.
    Mr. Higgins. Thank you, Mr. Chairman, and I thank the 
panelists for appearing before us today. It is a very important 
topic, bipartisan, of course. We support full funding and what 
is required to retrieve all American service men and service 
women who have been lost. I believe that is a unanimous 
consensus.
    I do have a question that perhaps, Ms. Shirley, you may be 
the one that could give me some insight in this, all of us. Do 
you have any idea how many remains have been recovered, that 
have, in some nation state, in some laboratory that we have no 
DNA on file?
    Ms. Shirley. I don't know how many they have there in the 
lab. I know that they just keep hoping that they are going to 
get somebody's DNA, that they can, you know, run through the 
data base and bring them back. But I do know that they do have 
some.
    Mr. Higgins. These recovered remains exist, that are 
awaiting DNA comparison, for a DNA hit, right?
    Ms. Shirley. Yes.
    Mr. Higgins. And are you aware of, or can you shed any 
light, is there an equivalent agency at, say, the United 
Nations level, that works with DPAA, that communicates with 
other nation states that perhaps have similar endeavors, be 
they private or nonprofits or government organizations?
    Ms. Shirley. I can't answer that. I am sure----
    Mr. Higgins. Perhaps the next panelist would be able to.
    Any one of you could perhaps respond to this query. In law 
enforcement, we watched something change over the last 15 
years. So as the digital age became manifest, especially 
including cold cases and missing persons, the older detectives 
had a way of doing things that required a great deal of assets 
and resources in order to research and try and get tips or 
leads, or look into cold cases and missing persons.
    As the new generation of investigators that have IT skills 
came into service, they started having ideas about using the 
internet to search for missing persons and to put clues out 
there for cold cases, and it has worked, from sea to shining 
sea. Now you have cold cases and missing person cases that have 
lingered for, in some cases, decades, that have been solved by 
a bright, young detective that brought a new methodology to a 
detective division at departments everywhere.
    Has that happened within the DPAA, or are you aware of it, 
where we can do more with less? I mean, we are a nation that 
intends to fully fund this very, very important core principal 
endeavor, but at the same time we want to use every efficiency 
possible. So can any of you shed a light on anything that has 
been done? Mr. Noah?
    Mr. Noah. There are a large number of individual personnel 
deceased files and personal records related to missing 
servicemen from World War II and Korea that are available 
online, and many people have done a prodigious amount of 
research to collect data that will start the process for field 
activity and for searching for missing people. But it really is 
just the beginning. The beginning of finding and solving a 75-
or 60-or 50-year-old case starts with a prodigious amount of 
research and culminates in placement of correct excavation 
decision, where you might be able to find that.
    Mr. Higgins. Understood. That would be, in the interest of 
time, just to clarify, you are talking about field research. 
That would be once there was some basis for an investigation 
into a particular site.
    Mr. Noah. Correct.
    Mr. Higgins. But comparing the expense of initiating an 
investigation to that level in the field, now versus 15 years 
ago, it would seem to me that more could be done with less. In 
other words, we have digital efficiencies that reach worldwide 
now that we did not have 15 years ago.
    Mr. Noah. Correct, and DPAA has already started utilizing 
some of those opportunities by doing research related to the 
unknown soldiers that are already buried in American military 
cemeteries, to determine the possibilities of who they may be, 
to fund excavation decisions to disinter them and then to 
identify them.
    Mr. Higgins. Thank you all for your commitment, and I thank 
the chairman and the ranking member for holding this hearing 
today. Thank you, sir.
    Mr. Lynch. Thank you. The gentleman yields. At this point I 
would just like to say thank you, Mr. Noah, Mr. Lawrence, Ms. 
Shirley, for your testimony here today and helping the 
committee with its work, and putting a personal face on this 
effort, and also inspiring us by your own efforts that you are 
doing, and reaffirming the commitment that we have as a country 
to make sure that we identify, we recover, and we return every 
one of these service men and women that we have lost.
    At this point I would declare that the witnesses are 
dismissed, with the thanks of the committee.
    The other witnesses in the next panel, would you please 
come forward. As the panels are switching out, please be aware 
that there may be additional written questions for you for the 
record, and I would ask that you answer them promptly and 
completely. And again, we want to thank Panel One for their 
willingness to testify and help this committee with its work. 
Thank you.
    We are going to take a five-minute recess just to reset the 
panel. Thank you.
    [Recess.]
    Mr. Lynch. The committee will now reconvene. At this time I 
would like to welcome our next witness. Today we are joined by 
Kelly McKeague, Director of the Defense POW/MIA Accounting 
Agency. Mr. McKeague, would you please rise and raise your 
right hand.
    I will begin by swearing you in.
    Do you swear or affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    Let the record reflect that the gentleman has answered in 
the affirmative. And with that I would like to welcome you to 
offer a five-minute recitation of your upcoming testimony.

    STATEMENT OF KELLY McKEAGUE, DIRECTOR, DEFENSE POW/MIA 
                       ACCOUNTING AGENCY

    Mr. McKeague. Chairman Lynch, Ranking Member Hice, other 
distinguished members of the subcommittee, it is a privilege to 
appear before you today and to update you on the efforts of the 
Department of Defense to achieve the fullest possible 
accounting of missing Americans from designated past conflicts.
    The Defense POW/MIA Accounting Agency has worked 
collaboratively to execute and advance this noble mission with 
other partner agencies within the DoD, with the Department of 
State and its embassies, with 46 partner nations, and with non-
Federal entities, three of whom you had represented on the 
first panel.
    These efforts are global in scope with investigations 
marked by painstaking research, challenging recoveries in 
inhospitable environments, and remarkable scientific 
enterprise. While the numbers of our Nation's unaccounted for 
and the inherent task to find answers on them is daunting, DPAA 
and its partners are not deterred.
    I have structured my written statement highlighting the 
four lines of effort within DPAA's five-year strategic plan--
research and analysis, accounting, communications, and business 
operations. Focus on achieving an agile, innovative, 
collaborative, and digital agency capable of an increased pace 
and scope to account for our missing, our lines of effort will 
build upon the agency's significant successes since its 
establishment in 2015.
    Among those successes are, as many of you pointed out, we 
have consistently increased the number of missing persons 
accounted for each year since our 2015 reorganization, with the 
last Fiscal Year culminating in 218 accounted for. We 
established and maintained a single centralized data base and 
case management system by leveraging the latest in information 
technology. Our efforts in Vietnam and Laos have been marked by 
an increased pace and scope, as both countries have been more 
amenable to initiatives that better achieve mutually shared 
objectives.
    While we were not able to arrange field operations with the 
North Korean army, as you mentioned, Mr. Chairman, 41 
servicemembers have so far been accounted for from those 55 
boxes repatriated last year, and many more are expected in the 
months ahead.
    We are increasingly utilizing public-private partnerships, 
as you heard from Mark Noah, to increase capacity and 
capabilities that to date have resulted in 82 partner field 
missions at an estimated cost avoidance of $32.1 million.
    Since almost 20 percent of the missing who are estimated to 
be recoverable are buried as unknowns in U.S.-controlled 
cemeteries here at home or abroad, DoD continues to 
successfully execute a rigorous program to disinter these 
remains for the purpose of identification.
    And last, through our increased engagement with families 
and veteran service organizations, we continue to strengthen 
transparency and trust as we provide more information about 
their loved ones and DPAA's activities on their behalf.
    While DPAA has become the cohesive agency the Department of 
Defense and this Congress envisioned, we still face significant 
challenges, but DPAA will not waver in its commitment to bring 
our missing heroes, their families, their comrades in arms, and 
the American people the answers they deserve. It is a moral 
obligation to seek the fullest possible accounting of those who 
lost their lives in service and sacrifice to this great nation. 
They must never be forgotten, and Mr. Chairman and members of 
the subcommittee, I thank you for not doing so, as you support 
the sacred mission.
    I respectfully submit my written statement for the record 
and welcome any questions you may have.
    Mr. Lynch. I thank the gentleman. I yield five minutes to 
myself for questioning.
    First of all, thank you very much, Mr. McKeague, for your 
willingness to come before the committee and for all the work 
that you are doing to help return our heroes to their families 
and to their communities.
    During the recent codel, when I had a chance to get out to 
Joint Base Pearl Harbor-Hickam, I spoke with your deputy 
director, Rear Admiral John Crites, and it was a great 
opportunity to see the lab in action. At that point they had 
recovered 40 sets of remains from Tarawa, and so I got an 
opportunity, and our staff got an opportunity to observe that 
whole identification process. It was really emotional, but just 
spiritually, you know, it felt right that we were doing that 
work and that those young men would be returned to their 
families and to their home communities.
    I know that for Fiscal Year 2019, Congress appropriated 
about $15 million additional for DPAA's operations, and I am 
just concerned. I know there is a shortage of funding. Where 
would additional resources be best allocated? Is it the 
investigation portion? Is it the actually recovery operations? 
Is it the identification portion where we have remains that are 
recovered but not identified?
    Where do you think the additional resources--because we 
have--look, I have to give my Republican colleagues great 
credit for their willingness to work on this as partners. So 
there is no--I cannot sense any opposition. It is more inertia, 
that we have got to move this thing and create a priority for 
it, and then fight like heck when we get it on the floor, or by 
amendment, you know, friendly amendments, Democrats and 
Republicans fighting together for this purpose. So this is 
something we agree upon. So I don't see what the hold-up is 
here, you know, and I think that--well, I can't speak for the 
Senate but I think they would take a favorable view of this as 
well.
    So could you tell us where do you think the allocation of 
resources would be best received and produce the--you know, the 
biggest benefit for the expenditure?
    Mr. McKeague. Mr. Chairman, first of all I would like to 
thank the Congress. In 2018, you all provided us $15 million 
extra in funding. This last fiscal year, you provided $30 
million extra to DPAA. In both cases, all of that money was put 
toward operations in the scientific enterprise.
    If we were to receive additional funding, there are three 
priorities we would place it against. First would be expanding 
the scientific staff to be able to do more identifications and 
forensic analysis. The second would be a digitization project, 
again, as we try to, as a member talked about earlier, what are 
we doing to improving finding missing persons. And the third 
area would be expanding public-private partnerships, which you 
heard from Mark Noah.
    So if we were to receive extra funding, that funding would 
go toward capabilities and capacity purely from an operational 
standpoint, to allow us to increase our pace and scope.
    Mr. Lynch. Okay. I do know that in one of your earlier 
requests--and I am not sure if it was last year or the year 
before--actually, it was for the 2020 budget, DPAA asked for a 
$17 million increase in the budget for North Korea. And I 
understand, you know, that was open, you know, that theater was 
open for a while and we were getting some remains. I am not 
sure what the status is right now. Could you explain, you know, 
the urgency and the focus on North Korea, which has been a 
closed shop since we had a falling out over some of their 
nuclear proliferation issues some years ago.
    Mr. McKeague. Yes, sir. So we operated successfully in 
North Korea for 10 years, from 1996 to 2005, but we have not 
been back since to conduct joint field operations. As part of 
the Singapore Summit, the President was able to get from 
Chairman Kim a commitment to not only repatriate remains that 
they hold but also to resume field operations.
    Twenty million of the 30 million that Congress gave us was 
directed toward operations in North Korea. We were unable, 
obviously, to execute that. In 2019, the Department of Defense 
gave us an additional $17 million for the express purposes that 
should we get an arrangement with North Korea that we could 
utilize that money to conduct those operations. Unfortunately, 
our entreaties to the North Korean army have been met with 
silence. Our last contact with them was in March. But we 
continue to be open to the opportunity to sit down with them, 
to negotiate field operations in 2020.
    Mr. Lynch. Very good. I have exceeded my time so I would 
like to recognize the gentleman from Georgia, Mr. Hice, for 
five minutes.
    Mr. Hice. Thank you, Mr. Chairman, and thank you, Director 
McKeague, for being here.
    It is my understanding that DPAA has developed a case 
management system that helps list the names of those missing in 
action and so forth, so that families can research and kind of 
keep updated. When did that go live?
    Mr. McKeague. That went live in 2015.
    Mr. Hice. Okay.
    Mr. McKeague. Actually, we started developing it in 2015. 
It utilizes the latest in information technology. It is cloud-
based computing. We intend to look at machine learning. We 
intend to look at artificial intelligence as we expand it. We 
had our initial operating capability with that system in 2017, 
and declared final operational capability this past April.
    Mr. Hice. Okay. So it is still relatively new.
    Mr. McKeague. Yes, sir.
    Mr. Hice. How often is it updated?
    Mr. McKeague. It is a continual process.
    Mr. Hice. So it is constantly being updated.
    Mr. McKeague. Yes, sir. As our users begin to become more 
familiar with it, and it is across the entire enterprise, and 
it is just not the historians and researchers. It is also the 
scientists. So it runs the full gamut in terms of providing 
that common operating picture when it comes to the missing.
    Mr. Hice. So do family members or those who sign up for 
this, or however they get on with it, do they receive automatic 
updates, or do they have to go online to check it on a regular 
basis? How does that work?
    Mr. McKeague. So there is a public portal piece that a 
family member has access to, all of their cases, all of their 
profiles, all loaded in there. They can readily access that 
with ease. The case management system is more an internal 
agency as well as a Department of Defense collaborative tool.
    Mr. Hice. So does that mean--do they receive an email that 
there is an update on their case, or do they have to keep 
looking?
    Mr. McKeague. They have to keep looking.
    Mr. Hice. Oh they have to keep--Okay.
    Mr. McKeague. Yes, sir.
    Mr. Hice. So once you have identified an individual, what 
safeguards do you have to make sure that it is the 
servicemember of a particular family?
    Mr. McKeague. Before our scientists make an identification 
they utilize multiple lines of evidence, and it is not just one 
line of evidence that secures that definitive, it is this 
soldier, sailor, airman, or Marine. Utilizing those multiple 
lines of effort, the medical examiner assigned to DPAA will not 
make that forensic determination until he is satisfied that 
lines of evidence have been--sufficient lines of evidence have 
been met.
    Mr. Hice. But you don't always have those sufficient lines. 
So how do you make a determination? I mean, what you just 
described certainly would be an ideal scenario, where you are 
able to verify and reverify and have different angles from 
which verification is positive. But what if you don't have all 
those different lines?
    Mr. McKeague. We need three before we can make an 
identification.
    Mr. Hice. All right, so if you don't have three out of X 
number----
    Mr. McKeague. Seven.
    Mr. Hice [continuing]. if you don't have three out of seven 
then that person is never identified.
    Mr. McKeague. Yes, sir.
    Mr. Hice. Okay. All right. So once a servicemember is 
identified, and this is the question I asked Ms. Shirley 
earlier, what kind of timeframe from that point until when the 
family is able to receive their loved one and have a proper 
interment, or whatever they want to do?
    Mr. McKeague. As soon as we make an identification report 
we turn it over to the Service Casualty Office of the 
servicemember's service. They will then contact the family. 
They will share with them the identification report, and at 
that time they will make arrangements for the interment, within 
weeks.
    Mr. Hice. Okay. So we are not talking months and months.
    Mr. McKeague. No, sir.
    Mr. Hice. So once an individual is identified, we are 
talking weeks----
    Mr. McKeague. Yes, sir.
    Mr. Hice [continuing]. before the family--wow, that is 
amazing.
    Mr. McKeague. Now the interment, in a case like Arlington, 
is challenging----
    Mr. Hice. Sure.
    Mr. McKeague [continuing]. because of the delay----
    Mr. Hice. But at that point it is in the family's hands and 
it is out of yours, and the family has their servicemember 
home, and making the arrangements from there is a different----
    Mr. McKeague. Yes, sir.
    Mr. Hice. I have got you. Okay, let me go back to--Chairman 
Lynch introduced the Defense POW/MIA Accounting Agency Support 
Act. I am just curious, your thoughts and discussions of how 
this would impact DPAA.
    Mr. McKeague. It impacts DPAA from the standpoint that as 
an entity within the Department of Defense, we do not--our 
mission does not fit the risk to public safety as well as a 
national security imperative. And as such, there have been 
instances in the past when there has been a lapse in 
appropriations that we have had to shut down the operation and 
only leave a skeleton crew behind for ensuring that equipment 
and materials are protected.
    Right now, the bill is not consistent with department 
policy as to us qualifying for that exemption, and it would be 
something that we would collectively have to weigh, is the risk 
of these civilians conducting this mission and not getting 
paid, how is that weighed against is it a threat to national 
security or public safety?
    Mr. Hice. Okay. Well, maybe that is something we can work 
together on.
    Mr. McKeague. Yes, sir.
    Mr. Hice. But again, I want to thank you for the incredible 
job you do. Thank you for being here.
    Mr. McKeague. Thank you, sir.
    Mr. Hice. Thank you.
    Mr. Lynch. One quick question. Admiral Crites had mentioned 
that when some families are contacted about the identification 
of a loved one they actually fly out to Hickam, at Pearl 
Harbor, to accompany the body, the remains, back into the 
country.
    Mr. McKeague. Yes, sir.
    Mr. Lynch. Do we pay for that, or DPAA, do we provide 
funding to help those families come out?
    Mr. McKeague. The respective service funds a military 
escort.
    Mr. Lynch. Wow.
    Mr. McKeague. Under the rules, it has to be a uniformed 
member. So we benefit from the standpoint that there are family 
members, second and third generation, serving in uniform today, 
whose uncle, great-uncle, grandfather, in fact, they have the 
privilege to bring home.
    Mr. Lynch. Okay.
    Mr. McKeague. So the military department will fund those 
individuals.
    Mr. Lynch. That is great. Okay.
    The chair recognizes the gentleman from Texas, Mr. Cloud.
    Mr. Cloud. Thank you, Chairman. Okay, so we have--and thank 
you for being here.
    Mr. McKeague. Certainly.
    Mr. Cloud. I really appreciate, again, the opportunity for 
us to work on this topic together.
    So we have about 82,045--am I--so that would be 43,000, 
roughly, who we deem are unrecoverable, and then almost 39,000 
we think we could have the potential to find. Do we know, of 
those two, where they are? Like what distinguishes--why do we 
think they are unrecoverable versus recoverable? What are you 
using to make that--to distinguish that? And then, do we know 
where, roughly, they are, what field of service?
    Mr. McKeague. A majority of those individuals that are 
nonrecoverable are deep water, at-sea losses. These are ships, 
aircraft that are in depths that are technologically impossible 
to get.
    Mr. Cloud. Okay.
    Mr. McKeague. There is also a category of nonrecoverables 
that we, through our investigations and our excavations, have 
hit a brick wall, evidenced by Bobby Jones.
    Mr. Cloud. Right.
    Mr. McKeague. Jo Anne's brother, we have been to that site 
eight times. Now we don't classify him as nonrecoverable yet. 
It is still in a deferred status. But we have categorization--
four categorizations that we will place an individual in, 
depending upon where we are in the investigative as well as the 
recovery phase. The majority of the nonrecoverables are the 
deep water, at-sea losses.
    Mr. Cloud. Okay. Like 70 percent?
    Mr. McKeague. I would say probably 80.
    Mr. Cloud. Eighty?
    Mr. McKeague. Eighty, 85 percent.
    Mr. Cloud. And of those we think we could find, do we know 
what field of service they are in? How many are in North Korea, 
or----
    Mr. McKeague. Oh, absolutely. Yes, sir.
    Mr. Cloud. Could you break that down, roughly?
    Mr. McKeague. Sure. If you will allow me to pull out my 
handy-dandy cheat sheet. So if you were to look at our missing 
by conflict, we estimate that the recovered individuals, for 
World War II we estimate close to 30,500 are recoverable; for 
the Korean War, 7,200; for the Vietnam War, close to 1,100; and 
126--actually, none from the cold war.
    Mr. Cloud. Right. Okay. So basically--and the process would 
be, generally speaking, you get a tip on a location, through 
research, history, then we work through excavation recovery, 
remains, and then it goes to the lab, and then we work with the 
family to try to make the contact. How many remains do we have 
that we can't find who they are connected with because of lack 
of DNA, or is it more the fact that we--are there remains we 
have, I should say, that we don't know who to connect them 
with?
    Mr. McKeague. It is both. It is both remains that have not 
yielded DNA, and these are because they have either degraded 
environmentally or they have been degraded by being treated 
with formaldehyde powder when they were first recovered and 
being able to un-identify them back in the 1940's and 1950's. 
So it is that piece as well. But then we also DNA that is not 
yielding because we don't have a family reference sample.
    Mr. Cloud. I guess I was trying to figure out is more along 
those lines. How many could we identify if we had the DNA 
information from the family?
    Mr. McKeague. So if you look at the Vietnam War, we have 88 
percent family reference samples on file. For the Korean War it 
is 92 percent. For World War II, we only have 12 percent of the 
missing have a DNA family reference sample. And the reason for 
that is because it wasn't until 2010, when Congress directed 
the department to proactively search for, recover, and identify 
missing from World War II. Prior to that it was a reactive 
mission.
    And so, Mr. Cloud, it is a very linear process, and you hit 
the nail on the head. In order for us to be able to excavate, 
we first must do the research and analysis up front, to take an 
area this size and reduce it down to this size. Then we send 
field investigators to narrow it down even further. And if we 
are higher than probable theory that we know where, we have an 
idea where the excavation might be, we will send a recovery 
team in there.
    So we are playing catch-up with World War II, just given 
the late start. Until we build out the research and analysis 
and the historical archival information, we won't be sending 
teams all over the world as effectively as we do with Vietnam.
    Mr. Cloud. Okay. I have no more questions.
    Mr. Lynch. The gentleman yields. The chair now recognizes 
the gentleman from Tennessee, Mr. Green, for five minutes.
    Mr. Green. Thank you, Chairman Lynch. I really appreciate 
it.
    Just to kind of go over your history a little bit, you are 
a two-star general, as I understand, retired?
    Mr. McKeague. Yes, sir.
    Mr. Green. How many years of service did you give in the 
Air Force?
    Mr. McKeague. Thirty-four.
    Mr. Green. Thirty-four years of service. So these are your 
brothers and sisters too.
    Mr. McKeague. Yes, sir.
    Mr. Green. You were raised a patriot, as I understand. You 
have a family member serving as well. Thank you for that.
    It is an honor to have you here, sir, and I think the 
country is lucky to have you serving where you are. Most of the 
questions that I had planned to ask have been asked. Just one 
quick reminder on the remains. I think it was 55 that were 
given to us from North Korea. Is that right?
    Mr. McKeague. Fifty-five boxes.
    Mr. Green. Fifty-five boxes, and there were 31 that you 
have identified so far?
    Mr. McKeague. Forty-one.
    Mr. Green. Forty-one.
    Mr. McKeague. Yes, sir.
    Mr. Green. Okay.
    Mr. McKeague. But here is an interesting fact. There are 
250 independent DNA sequences in those boxes.
    Mr. Green. Wow.
    Mr. McKeague. Eighty of them are of Asian origin----
    Mr. Green. Okay.
    Mr. McKeague [continuing]. either South Korean or Chinese. 
But of the 170 of Western origin, only 20 have been previously 
identified and accounted for.
    Mr. Green. Okay.
    Mr. McKeague. It shocked us that we are now talking 
potentially up to 150 U.S. or U.N.-sending state individuals 
that could be identified from these boxes.
    Mr. Green. Wow. That is fantastic. Okay.
    I think you heard a little bit of my story earlier when we 
were talking. I served for 24 years myself and I have family 
members now serving. So I asked the question, you know, we are 
also Congress and we have a responsibility to taxpayers and all 
that stuff, and you are in a unique mission that we want to do 
all we can for, and I support the chairman's bill. But at the 
same time I want to ask, you know, some tough questions, so 
bear with me just a second.
    As I understand it, your budget last year was--well, the 
budget you asked for this year was $146 million. Is that right?
    Mr. McKeague. Yes, sir.
    Mr. Green. And that is, I think, 14 or so million less 
than--we put in the line entry about $14 million less than 
that, right?
    Mr. McKeague. Yes, sir. You enacted 160.
    Mr. Green. Okay. If you divide that by 218, which is what 
you guys got last year, that is about $600,000 per person. With 
the 38,000 that we have got left to find, if it is $600,000 
per, we are talking about close to $25 billion. My question to 
you is, how can we be more efficient and do this, and find some 
efficiencies in doing this?
    Mr. McKeague. Yes, sir. We have looked at this for many 
years. So if you look back to the predecessor organizations, we 
didn't do it very well, and I think that was part of the 
impetus why, as you mentioned, GAO, by the IG, and ultimately 
Secretary Hagel recognizing that we needed to look at a better 
way to do that. And thus you have the merged agency, single-
purpose, sole mandate to fulfill this Nation's commitment.
    Over the three-years that we have had DPAA in place, since 
the stand-up of our final operating capability, we have 
utilized the authorities that Congress gave us, particularly 
with establishing public-private partnerships. I mentioned that 
cost avoidance of $32 million, that we are very proud of. And 
we are able to do that by agencies such as Mark Noah's. But we 
work with universities, both domestic and international. So we 
are looking for ways to expand capability and capacity, because 
we know we won't get additional manpower.
    We are also looking at technological advances. Our 
laboratory just put forward a stable isotope analysis 
capability. This allows us to differentiate comingled remains 
by the geographic origin of where they came from, as well as 
who they might belong to. That will save us tremendously in not 
having to do the expensive, time-consuming step of DNA 
analysis, if we can segregate up front.
    And I mentioned to you that we are also utilizing our case 
management system. We are looking for efficiencies there on how 
we can figure out to bring in new technologies, new innovations 
such as machine learning and artificial intelligence to help us 
do more on the up-front, and, more importantly, on the back 
end, when it comes to identification.
    Mr. Green. It just makes it much easier for us to write a 
bigger check knowing that you are looking for efficiencies in 
the system. And if we could get the cost per down, you know, 
that makes it easier for us to write more. Nobody wants to find 
these remains any more than I do.
    Mr. McKeague. Yes, sir.
    Mr. Green. And like I said, I have lost friends in combat, 
so I know. But I just want to make sure we are doing it as 
efficiently as possible.
    Mr. McKeague. Yes, sir.
    Mr. Green. And thank you for all the hard work that you are 
doing.
    Mr. McKeague. We are also looking at our annual operations 
plan. We have a quarterly assessment that looks at, okay, how 
did we do that particular mission in Laos? Did we do it to the 
best of our ability?
    We are also leveraging, to their credit, the Vietnamese 
have doubled the number of unilateral teams they are putting in 
the field.
    Mr. Green. That is fantastic.
    Mr. McKeague. And they will go from four this year to six, 
and next year they will field eight unilateral excavation teams 
that have no U.S. personnel on it, that we have helped train, 
going out to areas that are hard to get to, that are 
inaccessible, and they are doing this on their own volition.
    Mr. Green. Well, thank you again for your amazing service 
and your willingness to do this.
    Mr. McKeague. Yes, sir.
    Mr. Lynch. The gentleman yields.
    So, Mr. McKeague--and again, thank you for your service--I 
wanted to just touch on that issue as well. Obviously, when the 
Koreans did the recovery, they gave us 51 boxes and 250 sets of 
remains, the precision with which they operate, or, you know, 
the care and exactitude that they operate with is far less than 
what you do when you do these operations. So, you know, there 
is some quality issues, I guess, in terms of recovering our 
personnel.
    Are you worried about the same situation with Vietnam? We 
actually met with some of their recovery teams when we were 
there back a few years ago, and I understand when we were doing 
recovery operations, if we recovered Vietnamese boys we 
returned them to their home country and try to help them with 
that. But do you worry about not being on the ground with these 
Vietnam recovery teams during their operations?
    Mr. McKeague. No, sir. We have ultimate confidence in their 
abilities, and, more importantly, their passion. When we first 
started out we would create Vietnamese recovery teams. These 
normally had five to six American subject matter experts, 
rounded out by Vietnamese officials and part of their military. 
Those VRTs have evolved to these unilateral excavation teams, 
and it is because they, themselves, have committed to the 
capability building, they have committed to the training that 
we have provided them, and, more importantly, they have 
delivered with great results.
    I would like to clarify that the remains that came from 
North Korea, we know that they lack forensic capabilities, and 
so these remains in these 55 boxes were very disjointed, they 
were very degraded, but all the bones--there were 500 bones in 
those boxes, very comingled, very degraded. But every single 
one of them yielded DNA, because they had been stored for many 
years in an environment that was conducive to that.
    On the other hand, their South Korean counterparts probably 
rival us in terms of capability, capacity, and talent. We 
helped stand up their capability with them in 2001, and they 
have developed it to quite the impressive enterprise. And you 
might recall that as part of the North Korean and South Korean 
agreement, they actually had been working in the DMZ, on 
Arrowhead Ridge, since April 1st.
    I met with my South Korean counterparts last month. They 
have found 600 bones from that effort. And so we are very 
confident. We have a strong relationship with our South Korean 
counterparts. We are just hoping that, again, North Korea will 
be receptive to us, at some point, resuming field operations 
with them.
    Mr. Lynch. Okay. That is great. That is encouraging.
    Can I ask you about the USS Oklahoma? When we were there 
recently I was told that while earlier on, maybe it was because 
of a lack of technology, the remains of those sailors were 
considered just buried at sea. And now I understand that there 
has been some recovery and identification operations going on 
with respect to the USS Oklahoma, which was sunk at Pearl 
Harbor.
    Mr. McKeague. Yes, sir. So when the ship was righted about 
a year and a half later, the Navy went through and recovered 
all the remains. Back in the 1940's, they identified what they 
could. A majority of them could not be identified, and so they 
were buried as unknowns at the cemetery in Honolulu, and we 
were able to disinter them, working with the Navy, in 2015. 
There were 388 sailors and Marines in those 60 caskets. They 
were highly comingled. One casket alone had 95 DNA sequences.
    Since 2015, we have diligently, at our Omaha, Nebraska, 
laboratory, we have diligently begun the process of 
forensically analyzing those remains, along with the Armed 
Forces DNA Laboratory, and today we have identified 240 of 
those 388. And that is in about four years. We have another 89 
that we believe will yield--that yielded DNA. We believe that 
those 89 will also be identified here in the next few months. 
And so we are very pleased with the progress that we have made, 
but that has come about because of the collaboration with the 
Department of the Navy, as well as the Armed Forces DNA 
Laboratory.
    Mr. Lynch. That is great. I would like to ask you about the 
role of private partnerships. So who are our partners? Are 
these universities? Are they research labs? Just for the 
public's interest, who are some of your private partners now 
that actually help you with these location, identification, and 
recovery efforts?
    Mr. McKeague. So we have 57 active partnerships today. We 
have another 34 that are evolving. They range anywhere from 
helping us with research and analysis--I will give you an 
example.
    Mr. Lynch. Can you name some of them?
    Mr. McKeague. Sure. University of Wisconsin. We have a hub-
and-spoke arrangement with the University of Wisconsin to help 
us with research for World War II.
    Mr. Lynch. Is that the Madison campus, or----
    Mr. McKeague. Madison. Yes, sir. We are working with Texas 
Tech, which probably has the largest non-Federal holdings of 
Vietnam War history. We are working with them. You met Mark 
Noah on History Flight. We work with Scripps Oceanographic 
Institute out of California. We work with Woods Hole 
Oceanographic Institute in Massachusetts on helping us with 
underwater recoveries. We just added East Carolina University 
Underwater Excavation in Palau that was very successful.
    We also work with international partners. The University of 
Papua New Guinea is one that we are very excited about because 
their contacts throughout the Nation State is such that they 
are able to get into villages, remote villages. They have the 
relationships. Another one that we are working with, that we 
are very excited about, is, there is an organization called 
American Veterans Archaeological Recovery, AVAR. These are 
veterans, combat veterans, who through this opportunity to work 
an excavationsite, they found is very therapeutic for them. So 
they helped us with a B-24 recovery in the UK. That was very 
successful.
    There is another organization similar to that, Project 
Dagger, Task Force Dagger, that has helped us with an 
underwater recovery, along with Scripps, in the South Pacific.
    Mr. Lynch. That is great. Very helpful.
    Mr. McKeague. And for the record, Mr. Chairman, I would be 
more than happy to submit----
    Mr. Lynch. Yes, that would be helpful if you would submit 
that for the record----
    Mr. McKeague. Yes, sir.
    Mr. Lynch [continuing]. without objection.
    Mr. Lynch. The chair now recognizes the gentleman from 
Texas, Mr. Cloud.
    Mr. Cloud. Thank you again, Chairman. I appreciate you 
answering some of Mr. Green's questions. It is comforting to 
know that as we are, you know, prioritizing funds that you are 
looking at the efficiencies of it too and how what you are 
doing can better inform. So that is helpful.
    And I was going to ask about Laos as well, so it is good to 
know that is going well.
    Mr. McKeague. I would offer that the Lao also have been 
more cooperative over the last few years. So I give you three 
examples where we have asked them, presented initiatives to 
them. They have allowed us to increase our personnel that are 
there for the four joint field activities from 53 to 65. That 
allows us to do more. They have approved us adding a fifth 
operational period, and then they just added two individuals, 
Lao officials, to augment what the defense intelligence agency, 
STONY BEACH Program, is doing on field investigations and 
finding witnesses.
    These are just three things that the Lao government have 
been cooperative and amenable to as we have presented it to 
them.
    Mr. Cloud. Awesome. Thank you. I had asked this in the 
previous panel and you are probably the one who may have more 
information on it. Are there things from a legal or regulatory 
standpoint that we could do, any roadblocks that you are 
running into that we could help? You know, we talked about 
funding, I know, already, but is there anything that you are 
running into when it comes to dealing with families or dealing 
with----
    Mr. McKeague. No, sir.
    Mr. Cloud [continuing]. servicemembers? Okay.
    Mr. McKeague. You all gave us that private partner 
authority, which has been a godsend. You have given us the 
opportunity to engage in grants and cooperative agreements, 
which, again, allows us to work with universities that work in 
that venue of grants and cooperatives. And last year we came to 
you and asked you for the authority to accept gives, and you 
gave us that authority.
    So we assess the authorities that we have, and I can tell 
you that there are none that we lack today.
    Mr. Cloud. Okay. And then we talked about all the different 
steps in this process, from exploration and research to 
recovery and identification, and I believe when you were 
answering the chairman's questions you kind of discussed that 
the staff is probably the bottleneck of it. My understanding, 
in looking through some of the materials, was we probably have 
the lab infrastructure capacity to identify up to maybe 600 a 
year. Is that the thinking? We just don't have the staff, or is 
that not correct?
    Mr. McKeague. Not today. The capacity and capability we 
have today allows us to identify and account for 200, 250 a 
year.
    Mr. Cloud. Okay. Is that--I guess I am trying to 
distinguish between lab infrastructure and personnel.
    Mr. McKeague. They are both alike.
    Mr. Cloud. Okay. Those resources are kind of matched at 
this point.
    Mr. McKeague. Yes, sir.
    Mr. Cloud. Okay. And if you had more funding for lab 
personnel you would be able to find it? Is there a workflow 
issue with that?
    Mr. McKeague. Not at all.
    Mr. Cloud. Okay.
    Mr. McKeague. These young men and women are talented in 
their own right and live for the opportunity to serve DPAA and 
its mission. Mr. Lynch, you met many of them out there and you 
see that they are bright-eyed, they are uber-intelligent, and 
they are just dedicated, when we ask them to do what we ask 
them to do, not only in the laboratory but also in the field, 
where they are there for 45 days, in inhospitable environments, 
and working back-breaking labor to find missing Americans.
    Mr. Cloud. And for clarity I wasn't questioning those who 
are--I was questioning whether, you know, people are coming out 
of universities with the degrees needed to do----
    Mr. McKeague. Yes, sir. They want----
    Mr. Cloud. So you would be able to find the talent pool.
    Mr. McKeague. They look at DPAA as really the brass ring in 
the anthropology and archaeology world, just because of the 
very nature of its work.
    Mr. Cloud. Okay. Thank you very much.
    Mr. McKeague. Yes, sir.
    Mr. Cloud. I appreciate it.
    Mr. Lynch. The chair now recognizes the gentleman from 
Tennessee, Mr. Green, for five minutes.
    Mr. Green. Thank you, Mr. Chairman. It kind of dawned on 
me, and I am a former infantry guy so maybe I am not the 
fastest guy at the table, but it kind of dawned on me, a lot of 
what you are doing is really foreign affairs work at the U.S. 
Government.
    Mr. McKeague. Yes, sir.
    Mr. Green. I mean, you are out there working with our 
former enemies, in a way, to--you know, to find our remains. 
You are finding their remains and you are returning them with 
dignity. I can only imagine that returning those Chinese to 
China was, you know, a huge plus for us, from a foreign affairs 
and foreign relations standpoint. And I just want to say it is 
sort of--as I have listened to you talk, it sort of opened my 
eyes to even further possibilities with what you are doing. So 
I want to again thank you.
    Mr. McKeague. Sir, if I could comment.
    Mr. Green. Yes, please do.
    Mr. McKeague. That is a very insightful observation. Our 
mission actually predated normalization of relations with 
Vietnam by 10 years.
    Mr. Green. Wow.
    Mr. McKeague. We were actually working in Vietnam on 
investigations and recoveries seven years before the U.S. 
Embassy planted a flag. Vietnam, at the time, recognized, 
through the work of the National League of Families and other 
activities, that this was important to the United States.
    And so you are absolutely right. It is a tool of diplomacy, 
it is a tool of engagement, and because it is humanitarian, 
even today we are the only military-to-military engagement 
allowed by DoD with Russia.
    Mr. Green. Wow.
    Mr. McKeague. And we engage with the Chinese. And again, 
both countries, despite the strain and stress and tension with 
the overarching bilateral relationship, recognizes this as a 
humanitarian endeavor.
    Mr. Green. Well, that certainly makes it a lot easier. I 
mean, I just--I am excited to hear that, and I think that is a 
huge plus, sort of a side effect. I mean, your goal, of course, 
is to go and find our boys and girls who have given their lives 
for their country, but I think it is icing on the cake that 
what you are doing is really beneficial to our foreign policy.
    Mr. McKeague. Yes, sir.
    Mr. Green. And, Chairman Lynch, I just want to ask you, the 
next time you make one of these codels, I would love to know, 
because I would love to go out in the field and just share our 
appreciation with the men and women who are doing this mission. 
So thank you.
    Mr. Lynch. Mr. Green, you are in. You are in. We would be 
proud to have you, and obviously this will be a joint 
Democratic and Republican codel, and you are certainly welcome 
to attend, as are other members of the committee too, Mr. 
Cloud, as well.
    I do want to close by saying this. So on our previous visit 
to Vietnam on this issue we had a closing luncheon with a bunch 
of the communist generals in Saigon. Actually, it was in Hanoi. 
It was Ho Chi Minh City.
    And at the closing ceremony the commanding general, 
communist general, sort of gave a toast to our delegation at 
the end, and he said that the people of Vietnam have great 
respect for the people of the United States, but it is probably 
not for the reasons that you think. He said it is not because 
of your, you know, being a major--the major military power. He 
said it is not because of your--you know, you are the major 
economic power.
    He said it is because of efforts by the DPAA, and at that 
time, JPAC. He said, ``The fact that you are here 60-some-odd 
years later, for the sole purpose of bringing the bodies of 
your sons and daughters home for a dignified burial,'' he said 
that is why the people of Vietnam respect the United States so 
much.
    So thank you for your work. You will be hearing from us. We 
definitely will be trying to get out to Laos and maybe some of 
the live recovery operations going on in Vietnam. We will 
probably try to swing around to some of the other operations in 
the South Pacific as well.
    So I would like to thank our witness for his testimony 
today. Without objection, all members will have five 
legislative days within which to submit additional written 
questions for the witness--all the witnesses, first panel and 
second--to the chair, which will be forwarded to the witnesses 
for response. And I ask our witnesses to please respond as 
promptly as you are able.
    This hearing is now adjourned.
    [Whereupon, at 5 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
